20- 108 S
Case No.

'jilt

At

Supreme Court of the 1nifet tatts

SCOTT ERIK STAFNE

Petitioner,
V.

FILED
FEB 0 1 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

THOMAS ZILLY ET AL.,

Respondents.
On Petition for Writ of Certiorari to the United States
Court of Appeals for the Ninth Circuit.

PETITION FOR CERTIORARI

SCOTT E. STAFNE Petitioner pro se

239 North Olympic Avenue
Arlington, WA 98223
TELEPHONE: 360.403.8700
Email: Scott@Stafnelaw.com
February 1, 2021

Church of the Gardens Press
www.churchofthegardens.org

RECEIVED
FEB -8 2021
QFEICE OF THE CLERK
SyFREME COURT, U.S.

•
QUESTION PRESENTED
Throughout history people have struggled to obtain justice. This
quest directly led to the Separation of Powers doctrine which requires
our federal government to have a judicial branch composed of independent judges who are responsible for exercising judicial power within the
scope of their delegated jurisdictions.
By the end of the Twentieth Century there appeared to be general
consensus among civilized nations that "[t]he independence of the judiciary shall be guaranteed by the State and enshrined in the Constitution
or the law of the country." Principle 1. Basic Principles on the Independence of the Judiciary (1985)1
This case presents the question for federal courts and judges in the
United States as to:
Whether the challenge that a jurist is not an Article III judge
because she or he does not have "good behaviour"2 tenure is a
jurisdictional one which must be considered by federal courts
and judges.

1 Endorsed

by General Assembly resolutions 40/32 of 29 November 1985 and 40/146
of 13 December 1985
2 Courts sometimes refer to the "good behaviour" tenure language in Article III as
being life tenure because unless a judge misbehaves and is impeached or gives up their
good behaviour tenure she or he can remain in office for life. See e.g. Wellness Int'l
Network, Ltd. v. Sharif, 135 S. Ct. 1932, 1938. (2015) Id. at 1951 Roberts, CJ. Dissenting

•
ii
PARTIES TO THE PROCEEDINGS
Petitioner Scott E. Stafne is a resident of Washington state. He is
admitted to practice law as an attorney in both the state courts and federal district courts of Washington state. Stafne is also admitted to
practice law before the Ninth Circuit Court of Appeals and this Court.
Respondents Thomas S. Zilly and John C. Coughenour are residents of Washington who are adjudicating cases for the federal judicial
branch of government as senior judges of the United States District
Court for Western Washington pursuant to a statutory retirement program that allows them to exercise judicial power when designated by
other judges to do so.
Respondent Barry G. Silverman is a resident of the state of
Arizona. Silverman adjudicates appeals for the judicial branch of the
federal government while acting as a senior judge for the United States
Ninth Circuit Court of Appeals pursuant to the same statutory
retirement program.
Respondent Trenary, who was sued in both his official and individual capacity, was the Sheriff of Snohomish County Washington until
January 1, 2021, when he was replaced by Adam Fortney. A corporate
disclosure statement is not required because Mr. Stafne is not a corporate entity. See Sup. Ct. R. 29.6.
RELATED PROCEEDINGS
Bank of New York Mellon v. Scott Stafne, 9th Circuit Court of Appeals No. 16-3602 reported at Bank of N.Y. Mellon v. Stafne, 824 F.
App'x 536 (9th Cir. 2020).

111

Bank of New York Mellon u. Stafne is an in rem foreclosure action
against land owned by Scott and Todd Stafne, and for a deficiency alleged owed against Scott Stafne. The action was brought by Bank of New
York Mellon and others. The Bank of New York Mellon case (hereinafter
BNYM) is the precursor of this case in that this case sought relief from
Bank of New Mellon's judgment through a collateral attack that is based
in part on one of the same legal theories that is asserted here, i.e., that
Article III does not allow senior judges without good behaviour tenure
to exercise judicial power.
Hoang v. Bank of America, U.S. District Court for the Western District of Washington Case No. 2:17-cv-00874-JLR.
Hoang v. Bank of America was remanded back from the Ninth Circuit Court of Appeals to the District Court of Western Washington to
allow Plaintiffs Jerry Hoang and Le Uyen Thi Nyguen to amend their
complaint to assert rescission claims against lenders under the Truth in
Lending Act consistent with this Court's decision in Jesinoski v. Countrywide Home Loans, Inc., 574 U.S. 259 (2015). See Hoang v. Bank of
Am., N.A., 910 F.3d 1096 (9th Cir. 2018). After remand Hoang amended
his complaint to assert the senior judge deciding the case for the District
Court did not have the tenure attributes required of an Article III judge
and for that reason was not independent within the meaning of Article
III.

iv
TABLE OF CONTENTS
QUESTION PRESENTED
PARTIES TO THE PROCEEDINGS
ii
RELATED PROCEEDINGS
ii
TABLE OF CONTENTS
iv
TABLE OF AUTHORITIES
DECISIONS BELOW
1
JURISDICTION
1
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED 1
STATEMENT OF THE CASE
2
Introduction
2
The Case Below
2
Relief requested from the District Court
2
The Article III legal theories alleged in Stafne's Complaint
4
PETITION FOR WRIT OF CERTIORARI
8
REASONS WHY CERTIORARI SHOULD BE GRANTED
8
ARGUMENT
8
Why Article III judges are required to have good behaviour tenure 8
Statutes Establishing the Organization of Courts
12
Judicial decisions interpreting assignment and designation
statutes hold they are jurisdictional
16
Article III cases dealing with lack of good behaviour tenure
21
Stafne has standing to assert his Article III claims
25
Stafne's claims under 42 U.S.C. §1983
26
The Collateral Attack doctrine does not apply to void judgments 28
Senior judges' judicial immunity defense
31
The decisions of the Court below should be summarily reversed 34
CONCLUSION
36
Appendix 1 Memorandum
la
Appendix 2 Opinion and Order
5a
Appendix 3 Order
33a
Appendix 4 Constitutional Provisions
36a
Appendix 5 Complaint
42a

•
TABLE OF AUTHORITIES
FEDERAL CASES
Aetna Life Ins. Co. v. Lavoie,
475 U.S. 813, 106 S. Ct. 1580, 89 L. Ed. 2d 823 (1986)

9

Arbaugh v. Y & H Corp.,
546 U.S. 500, 126 S. Ct. 1235, 163 L. Ed. 2d 1097 (2006)

33

Ayestas v. Davis, 138 S. Ct. 1080, 200 L. Ed. 2d 376 (2018)

29

Bank of N. Y. Mellon v. Stafne, 824 F. App'x 536 (9th Cir. 2020) .... ii, iii
Bender v. Williamsport Area Sch. Dist.,
475 U.S. 534, 106 S. Ct. 1326, 89 L. Ed. 2d 501(1986)

33

Bond v. United States,
564 U.S. 211, 131 S. Ct. 2355, 180 L. Ed. 2d 269 (2011)

25

Booth v. United States,
291 U.S. 339, 54 S. Ct. 379, 78 L. Ed. 836 (1934)

17, 21

Cabrera v. Martin,
973 F.2d 735, 744 (9th Cir. 1992)

9

Caperton v. A.T. Massey Coal Co.,
556 U.S. 868, 129 S. Ct. 2252, 173 L. Ed. 2d 1208 (2009)

9

Capron v. Van Noorden,
6 U.S. (2 Cranch) 126 (1804)

34

Clark v. Gilbert, No. 18-cv-337-pp, 2019 U.S. Dist. LEXIS 122949 (E D.
Wis. 2019)

20

Clark v. United States, No. 15-cv-726-JPG, 2018 U.S. Dist. LEXIS
27596 (E.D. Wis. Feb. 21, 2018).

19

Clinton v. City of N.Y.,
524 U.S. 417, 118 S. Ct. 2091, 141 L. Ed. 2d 393 (1998)
Evans v. Gore,

25

•
vi
253 U.S. 245, 40 S. Ct. 550, 64 L. Ed. 887 (1920)

21

Ex parte Bakelite Corp.,
279 U.S. 438, 49 S. Ct. 411, 73 L. Ed. 789 (1929)

16

Exec. Bens. Ins. Agency v. Arkison, 573 U.S. 25, 134 S. Ct. 2165, 189 L.
Ed. 2d 83 (2014)

23

Filarsky v. Delia,
566 U.S. 377, 132 S. Ct. 1657, 182 L. Ed. 2d 662 (2012)

31

Frad v. Kelly,
302 U.S. 312, 58 S. Ct. 188, 82 L. Ed. 282 (1937)

passim

Freytag v. Commissioner, 501 U.S. 868, 111 S. Ct. 2631, 115 L. Ed. 2d
764 (1991)

26

Gill v. Whitford, 138 S. Ct. 1916, 1932 (2018) citing Defenders of
Wildlife, 504 U. S., 555, 560 (1991)

26

Glidden Co. v. Zdanok,
370 U.S. 530, 82 S. Ct. 1459, 8 L.Ed.2d 671 (1962)

passim

Gomez v. United States,
490 U.S. 858, 109 S. Ct. 2237, 104 L. Ed 2d 923 (1989)

22

Gonzalez v. United States,
553 U.S. 242, 128 S. Ct. 1765, 170 L. Ed. 2d 616 (2008)

22, 23, 33

Grutter v. Bollinger,
288 F.3d 732 (6th Cir. 2002)

14

Grutter v. Bollinger,
539 U.S. 306, 123 S. Ct. 2325, 156 L. Ed. 2d 304 (2003)

14

Hertz Corp. v. Friend,
559 U.S. 77, 130 S. Ct. 1181, 175 L. Ed. 2d 1029 (2010)

33

Hoang v. Bank of Am., N.A.,
910 F.3d 1096 (9th Cir. 2018)
Ibrahim v. Dep't of Homeland Sec.,

iii

•
vii
538 F.3d 1250, 1257-58 (9th Cir. 2008)

27, 28

In re Murchison,
349 U.S. 133, 75 S. Ct. 623, 99 L. Ed. 942 (1955)

9

Ins v. Chadha,
462 U.S. 919, 103 S. Ct. 2764, 77 L. Ed 2d 317 (1983)

25

Jesinoski v. Countrywide Home Loans, Inc., 574 U.S. 259, 135 S. Ct.
790, 190 L. Ed. 2d 650 (2015)

iii

Johnson v. City of Shelby,
135 S. Ct. 346, 135 S. Ct. 346, 190 L. Ed. 2d 309 (2014)

passim

Leary v. United States,
268 F.2d 623 (9th Cir. 1959)

passim

Louisville & N.R. Co. v. Mottley,
211 U.S. 149, 29 S. Ct. 42, 53 L. Ed. 126 (1908)

34

Lujan v. Defs. of Wildlife,
504 U.S. 555, 112 S. Ct. 2130, 119 L. Ed. 2d 351(1992)

26

Mansfield, C. & L.M.R. Co. v. Swan,
111 U.S. 379, 4 S. Ct. 510, 28 L. Ed. 462 (1884)

34

Marbury v. Madison,
5 U.S. (1 Cranch) 137 (1803)

9

Nguyen v. United States,
539 U.S. 69, 123 S. Ct. 2130, 156 L. Ed. 2d 64 (2003)

19, 22

N. Pipeline Constr. Co. v. Marathon Pipe Line Co.,
458 U.S. 50, 102 S. Ct. 2858, 73 L. Ed. 2d 598 (1982)

11, 22, 25

O'Donoghue v. United States,
289 U.S. 516, 53 S. Ct. 740, 77 L. Ed. 1356 (1933)

21

Peretz v. United States,
501 U.S. 923, 111 S. Ct. 2661, 115 L. Ed. 2d 808 (1991)

22, 23

viii
Pierson v. Ray,
386 U.S. 547, 87 S. Ct. 1213, 18 L. Ed. 2d 288 (1967)
Steckel v. Lurie, 185 F.2d 291 (6th Cir. 1950)

31
18, 33

Stern v. Marshall,
564 U.S. 462, 131 S. Ct. 2594, 180 L. Ed. 2d 475 (2011)

22

Stafne v. Zilly, 337 F. Supp. 3d 1079 (W.D. Wash. 2018)

1

Stafne v. Zilly, 820 F. App'x 594 (9th Cir. 2020)

1

Stump v. Sparkman,
435 U.S. 349, 98 S. Ct. 1099, 55 L. Ed. 2d 331 (1978)

32

Todd v. United States,
158 U.S. 278, 15 S. Ct. 889 (1895)

22, 23, 27

United Student Aid Funds, Inc. v. Espinosa, 559 U.S. 260, 130 S. Ct.
1367, 176 L.Ed.2d 158 (2010)

28

United States v. Hatter,
532 U.S. 557, 121 S. Ct. 1782, 149 L. Ed. 2d 820 (2001)

21

United States v. Sineneng- Smith
140 S. Ct. 1575, 206 L. Ed. 2d 866

24

United States v. Raddatz,
447 U.S. 667, 100 S. ct. 2406, 65 L. Ed. 2d 424 (1980)

22, 23

United States v. Will,
449 U.S. 200, 101 S. Ct. 471, 66 L. Ed. 2d 392 (1980)

21

United States ex rel. Toth v. Quarles, 350 U.S. 111 (1955)

22

U.S. v. Clark, 1 Gallison 497(1813

24

Wellness Int? Network, Ltd. v. Sharif,
135 S. Ct. 1932, 191 L. Ed. 2d 911 (2015)

i, 22

Williams v. Pennsylvania,
136 S. Ct. 1899, 195 L. Ed. 2d 132 (2016)

9

ix
Williams v. United States,
289 U.S. 553, 53 S. Ct. 751, 77 L. Ed. 1372 (1933)
Wrenn v. District of Columbia, 808 F.3d 81 (D.C. Cir. 2015)

16
18, 33

CONSTITUTIONAL PROVISIONS

U.S. Const. art. II § 1 cl 2

passim

U.S. Const. art. III

passim

U.S. Const. art. V

1, 16

Wash. Const. art. I, §2

28

FEDERAL STATUTES

28 U.S.C. § 133(a)
28 U.S.C. § 291

2
12, 20

28 U.S.C. § 292 (a)

24

28 U.S.C. § 292 (c)

20

28 U.S.C. § 293 (a)

16

28 U.S.C. § 294

passim

28 U.S.C. § 371

passim

28 U.S.C. § 371(e)(1)
28 U.S.C. § 372

5, 18
12, 13

28 U.S.C. § 1915A
42 U.S.C. § 1983

20
passim

COURT RULES

Sup. Ct. R. 10(a)

8

Sup. Ct. R. 29.6

ii

Fed. R. Civ. Pro. 15 (a)(1)(B)

3

Fed. R. Civ. Pro. 60(b)(4)

19

OTHER AUTHOITIES

The Judiciary Act of 1869 and amendments thereto (April 10, 1869)
ch. 22, § 5, 16 Stat. 45

passim

x
Act of Settlement,
12 & 13 Will. 3, c. 2, § 3 (1701)(Eng.)

10

Berger, Raoul, "Dr. Bonhams Case: Statutory History or Constitutional
Theory?" 117 University of Pennsylvania Law Review 521
(Feb. 1969)

9

Basic Principles on the Independence of the Judiciary (1985)
Black's Law Dictionary
St. Paul, Minn., West Publishing Co (3d ed. 1933)

28

Block, F., Senior Status: An 'Active' Senior Judge Corrects Some
Common Misunderstandings, 92 Cornell L. Rev. 533 (2007)

6

Burbank, S. B., and Ablaysky, G., Leaving the Bench, 1970-2009: The
Choices Federal Judges make, What Influences Those Choices, and
Their Consequences, 161 U. Pa. L. Rev. 1 (2012)
15
David R. Stras & Ryan W. Scott, Article: Are Senior Judges
Unconstitutional? 92 Cornell L. Rev. 453 (2007)

passim

Ellis, R., The Jeffersonian Crisis: Courts and Politics in the Young
Republic (1971)

10

Federal Judicial Center (FJC) The Evolution of Judicial Retirement
https://www.fic.gov/history/spotlight-iudicial-history/iudicial-retirement (Jan. 12, 2021)
10
Garrow, D.J, Mental Decrepitude on the U.S. Supreme Court:
The Historical Case for a 28th Amendment, 67 U. Chi. L. Rev. 995
(2000)
12, 13
Gough, J. W., Fundamental Law of English Constitutional History,
Oxford, England: Clarendon Press (1955)

9

Smith, G. P. II, Dr. Bonham's Case and the Modern Significance of
Lord Coke's Influence, 41 Wash. L. Rev. 297 (1966)

9

Smith, J., An Independent Judiciary: The Colonial Background, 124
Univ. PA Law. Rev. 1104 (1976)

11

•
xi
Hamilton, A., Federalist Papers No. 9 (1787)

11

Hamilton, A. Federalist Papers No. 78 (1788)

11

Hamilton, A., Federalist Papers No. 79 (1788)

11

Hamilton, A., Federalist Papers No. 80 (1788)

11

Hamilton, A., Federalist Papers No. 81 (1788)

11

Hildabrand, C., Curiously Nonrandom Assignment of Sixth Circuit
Senior Judges,108 Ky. L.J. 1 (2019-2020)

15

Madison, J., Federalist Papers No. 10 (1787)

9, 11

Montesquieu, Charles de Secondat, baron de, 1689-1755. The Spirit of
Laws. London: Printed for J. Collingwood, 1823

8

Pratt, W.F, Judicial Disability and the Good Behaviour Clause,
85 Yale L.J. 706 (1976)
Restatement (Second) of Judgments

12,13
28

R. H. Helmholz, Bonham's Case, Judicial Review, and the Law of
Nature, 1 Journal of Legal Analysis (2009)

9

Thomas Bonham v. College of Physicians,
77 Eng. Rep. 646 (1610)

9

Volcansek, M. and Lafon, J., Judicial Selection: The Cross Evolution of
French and American Practices, 19-20 (1988)

10

Wood, G. S., Creation of the American Republic, 1776-1787,
The University of North Carolina Press. (1969)

10

Black, B., A., Massachusetts and the judges: Judicial Independence in
Perspective, 108-09 (2011)

28

1
DECISIONS BELOW
The Memorandum decision of the Ninth Circuit Court of Appeals affirming the district court's dismissal of Stafne's complaint is not published, but is
reported at Stafne v. Zilly, 820 F. App'x 594 (9th Cir. 2020). It is reprinted
at Pet. App. la-4a. The decision of the District Court dismissing Stafne's Complaint is published at Stafne v. Zilly, 337 F. Supp. 3d 1079 (W.D. Wash. 2018)
and reprinted at Pet. App. 5a-32a. The District Court's Order denying Post
Judgment Relief is not published. It is attached as Pet. App. 33a-35a.
JURISDICTION
The United States Court of Appeals for the Ninth Circuit entered judgment on September 3, 2020, Pet. App. la. No motion for rehearing or
reconsideration was filed.
On March 19, 2020, this Court by Order granted a 60-day extension of
time in which to file petitions for certiorari because of the COVID-19 Pandemic.
Stafne's Petition for Certiorari is being filed within this emergency time frame.
Accordingly, the jurisdiction of this Court is invoked under 28 U.S.C. § 1245(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Article III and Article V of the United States Constitution together with
relevant statutory provisions are reprinted in an appendix to this brief. Pet.
App. 36a-42(a)

2
STATEMENT OF THE CASE
A. Introduction
28 U.S.C. § 133(a) provides that the President shall appoint by and with
the consent of the Senate seven district court judges for the Western District
of Washington. At the time this case was filed the District Court had only four
active Article III judges with good behaviour tenure. Pet. App. 58a-57a. Today
the U.S. District Court for Western Washington has only two judges with good
behaviour tenure, out of 23 adjudicators, deciding cases brought by litigants in
this Federal District Court for Western Washington.3
B. The Case Below
1. Relief requested from the District Court
Scott Stafne is a third-generation attorney who filed this case pro se
against three senior judges he alleged did not have the constitutionally required attributes to exercise federal judicial power as an Article III judge.
Stafne also alleged, particularly regarding Senior Judge Thomas S. Zilly, that
Zilly was factually biased in favor of his adversaries.
Stafne also sued the Sheriff of Snohomish County in this case because the
sheriff, a local law enforcement official of the State of Washington, was threatening to evict Stafne from his home based on Senior Judge Zilly's foreclosure
order in BNYM (a related case in which certiorari by this Court will also be
sought in the next few weeks.)
Stafne's Complaint, attached at Pet App. 42a-108a, requested whatever
relief was available under the circumstances he had alleged. However, Stafne
wasn't particularly interested in damages. Stafne requested only one dollar in
3 See https://www.wawd.uscourts.gov/judges.

3
damages from Senior Judge Zilly under 42 U.S.C. § 1983 because his "goal is
to bring to the attention of Congress and the rest of the world the shoddy condition of the United States' judicial system.4" Pet. App. 103a-104a, ¶¶ 12.10,
12.11, notes 25 and 26. And in his prayer for relief Stafne indicates he is willing
to accept
no damages for his injuries because the purpose of this litigation is to
restore the judicial department's adherence to those aspects and
provisions of the Constitution necessary to protect the liberty of the
people and to protect against that judicial tyranny which pervades
the judicial department . . .
Pet App. 108a-09a, Prayer for Relief ¶ 3.
Stafne also sought relief to prevent these senior judges from exercising
federal judicial power in those federal cases in which he would appear as a
litigant or as an attorney representing clients in the future.5 His final prayer
for relief requested: "such other relief as may be appropriate under law and

Stafne concedes his complaint might have been better written. But he did the best he could
under the circumstances that existed at that time. Stafne also understood that the District
Court was required to freely grant him leave to amend his complaint "when justice so requires."
Fed. R. Civ. Pro. 15 (a)(1)(B). See also Johnson v. City of Shelby, 135 S. Ct. 346, 346-47 (2014).
Pet. App. 108a
5 ¶ 3.6 of Stafne's complaint states:
As an attorney admitted to practice and practicing before the USDCWW and the
Ninth Circuit Court of Appeals Stafne seeks such relief as is necessary to prevent
senior judge volunteers in these Courts from exercising judicial power after they
have resigned their office and . . . been succeeded in that office. Pet. App. 51a
4

¶3.7 states in pertinent part:
Alternatively, as an attorney admitted to practice and practicing before the
USDCWW and the Ninth Circuit Court of Appeals Stafne seeks such relief as is
necessary to prevent senior judge volunteers in these Courts from exercising
judicial power without the consent of the parties . . . Pet. App. 51a-52a.

4
equity to provide an appropriate remedy for the facts pled in this complaint."
App. 110, ¶ 4, citing to Johnson v. City of Shelby, 135 S. Ct. 346, 346-47 (2014).
2. The Article III legal theories alleged in Stafne's Complaint
Stafne's Complaint challenged these senior judges because they lacked
the Article III attributes for judicial independence, including good behaviour
tenure. His legal theories in this regard were based in large part on a law review article by David R. Stras and Ryan W. Scott,6 which he incorporated into
his complaint. The District Court acknowledges this incorporation of that article into Stafne's Complaint:
Stafne . . . argues that Congress' creation of the position of "senior
judge" violates the Appointments Clause of the U.S. Constitution,
contained in Article II, § 2. Stafne incorporates by reference a
law review article written by David R. Stras and Ryan W.
Scott. Stafne argues that for the reasons discussed by Judge
Stras and Professor Scott, the Federal Judge Defendants do
not validly exercise federal judicial power under Article III.
Stafne argues that, as senior judges, the Federal Judge Defendants
do not properly hold the office of an Article III Judge, but instead act
as mere "judicial volunteers." Stafne adds that although the
Western District of Washington has a policy that litigants may
consent to a case being heard by a U.S. Magistrate Judge or a U.S.
Bankruptcy Judge, there is no similar policy for seeking or requiring
consent to a case being heard by a "senior judge." Stafne also asserts
that "active judges" in the Western District of Washington do not
provide meaningful oversight of the work of senior judges. . . .
Yet. App. 13a (Emphasis Supplied)
Stafne asserts Judge Stras and Professor Scott set forth jurisdictional
challenges based on Article III making clear why senior judges who have resigned their good behaviour tenure are no longer Article III judges, which the

See e.g., David R. Stras & Ryan W. Scott, Article: Are Senior Judges Unconstitutional? 92
Cornell L. Rev. 453 (2007).

6

5
District Court should have considered before dismissing his complaint
without leave to amend. For example, Stras and Scott explain:
The first global constitutional objection [to senior judges] derives
from Article III, Section 1, which grants life tenure to federal judges
by providing that "the Judges, both of the Supreme and inferior
Courts, shall hold their Offices during good Behaviour." Upon
assuming senior status, however, judges no longer have the right to
perform judicial duties. Other Article III judges have discretion to
decide whether to allow senior judges to sit on any court, including
their "home" court. [28 U.S.C. 294(c), (d).] The possibility that a
senior judge could be barred from performing judicial duties
amounts to a constructive removal from office, which violates the
tenure protection of Article III.
Stras & Ryan at 481
To paraphrase, (without limiting purposes of Stafne's originally filed
Complaint) Eighth Circuit Court of Appeals Judge Stras' and Professor Scott's
arguments assert that 28 U.S.C. § 294(d) prohibits each senior judge from exercising judicial power unless he or she obtains two forms of annual
certification: one under 28 U.S.C. § 371(e)(1) and one under 28 U.S.C. § 294(c).
Because such periodic certification interferes with each adjudicator's good behaviour tenure by limiting his or her ability to exercise judicial power; and as
a result, may prevent receipt of that salary which the Framers intended such
judges must be paid, Stafne challenges senior judges are not independent
judges within the meaning of Article III.
It is difficult to understand how the District Court understood Stafne's
challenge to senior judges as being only a nonjurisdictional challenge based on
U.S. Const. art. II, § 2, cl. 2. For certainly it is made clear in the law review
article (which the District Court conceded was incorporated as part of Stafne's
Complaint) that Article III is a primary basis for the constitutional infirmities

6
asserted. Indeed, Professor Scott stated in SCOTUSblog7 about his article at
the time it was published:
We make two chief constitutional arguments: (1) the requirement
that senior judges (and Justices) be designated and assigned by another federal judge before performing any judicial work violates the
tenure protection of Article III; and (2) permitting senior judges (and
Justices) to elect senior status, without a second intervening appointment, violates the Appointments Clause.
Other judges who have commented on this article have understood its
Article III theories. Indeed, Senior Court of Appeals Judge Frederick Block
writes in his essay "Senior Status: An 'Active' Senior Judge Corrects Some Common Misunderstandings," 92 Cornell L. Rev. 533 (March 2007):
One prominent jurist (who has not taken senior status) has viewed
submission to the "designation and assignment" requirement of
§ 294 in exchange for continued compensation as a relinquishment
of lifetime tenure, being "a variant of the 'buy out' schemes by which
universities and other employers try to induce retirement." David
Stras and Ryan Scott take that argument a step further and suggest
that this feature of senior status, among others, makes it unconstitutional. . . ." Id. at 541.
The District Court appears to have avoided Stafne's Article III jurisdictional challenges by erroneously interpreting Stafne's Complaint against
senior judges as being based solely on an Appointments Clause challenge, see
Pet. App. 6a; 12a-24a; 26a-31a.; thereby avoiding consideration of the Article
III precedent Stafne relies upon. See infra. Based on its erroneous limitation
of Stafne's Complaint to only an Appointments Clause challenge the District
Court holds that Stafne's Complaint against the senior judges (1) is not cognizable pursuant to 42 U.S.C. § 1983, presumably because they are de facto

7 Last accessed on January 17, 2021 at https://www.scotusblog.com/2007/03/are-senior-iustices-and-iudges-unconstitutional/

•
7
judges, Pet. App. 15a-17a; (2) is precluded by the collateral attack doctrine,
Pet. App. 17a-18a; (3) does not adequately allege standing for purposes of obtaining injunctive relief, Pet. App. 18a-21a; and (4) is precluded by the doctrine
of judicial immunity, Pet App. 21a-29a. In the final section of its Order and
Opinion the District Court determines that 28 U.S.C. § 371 does not violate the
Appointments clause but ignores the Article III challenge jurisdictional challenge asserted by Stafne. Pet. App. 29a-31a
After the District Court's decision was entered Stafne timely filed a motion for Post Judgment Relief arguing, among other things, that the District
Court must address his Article III challenges. The District Court refused, stating:
Plaintiff is essentially rearguing the same points that the Court previously rejected. Further, to the extent that Plaintiff seeks leave to
amend his complaint, the Court finds that any such amendment as
described by Plaintiff would be futile because Plaintiff's claims
would continue to suffer from many of the same legal deficiencies
previously ruled upon by the Court. . . .
Pet. App. 35a
On appeal Stafne continued to adamantly assert his Article III challenges
that senior judges were not independent Article III judges because they lacked
good behaviour tenure. But like the District Court, the Ninth Circuit panel,
refused to address the Article III issues Stafne raised. The Ninth Circuit affirmed the District Court because it found (1) Stafne's request for injunctive
and declaratory relief was an improper collateral attack on the BNYM decision,
Memorandum, Pet. App. 2a; (2) judicial immunity barred any injunctive and
declaratory relief as a result of judicial acts by the senior judges, Pet App. 2a;
and (3) for purposes of 42 U.S.C. § 1983 the senior judges acted only pursuant

8
to federal law, not state law, when deciding the case. Memorandum Pet. App.
2a-3a. The Court of Appeals does not appear to have affirmed the District Court's
standing analysis because its Memorandum does not address this issue. See Pet.
App. la-3a.
PETITION FOR WRIT OF CERTIORARI
Scott E. Stafne, an attorney, respectfully petitions for a writ of certiorari
to review the judgment of the United States Court of Appeals for the Ninth
Circuit in this case pursuant to Supreme Court Rule 10(a).
REASONS WHY CERTIORARI SHOULD BE GRANTED
In this case Stafne is complaining that senior judges who have resigned
their good behaviour tenure, and must periodically be afforded permission to
exercise Article III judicial power, are interloper jurists because such judges
no longer have those attributes the Constitution makes essential for being independent judges. Further, that the courts below purposely avoided
considering this jurisdictional issue that was squarely before them.
ARGUMENT
A. Why Article III judges are required to have
good behaviour tenure
The United States' Separation of Powers structure of government and
Article III are based in part on our Framers' experience with English courts.
Early on—well before Baron de Montesquieu wrote The Spirit of Laws in 1750
which inspired our Framers adoption of the Separation of Powers as part of
our structure of government—English courts had established that judges exercising judicial power in England must be neutral and independent as
between litigants in order to exercise judicial power. In 1610, for example,
Lord Coke established one of the early precedents for judicial independence in

9
Britain; namely that judicial officers cannot adjudicate cases in which they
have an interest. See Bonham's Case, 77 Eng. Rep. 646 (1610).8 This Court
has separately held that the principle that no man should be a judge in his
own case is also required by the Due Process Clause. See, e.g., Williams v.
Pennsylvania, 136 S. Ct. 1899 (2016) ("No man can be a judge in his own case"
is a maxim of due process); Caperton v. A.T. Massey Coal Co., 556 U.S. 868,
876 (2009) (same); Aetna Life Ins. Co. v. Lavoie, 475 U.S. 813, 822 (1986)
(same); In re Murchison, 349 U.S. 133, 136 (1955) (same).
By the time our Constitution was adopted the principle expressed in Bonham's Case and this Court's later Due Process cases was well enough accepted
in the colonies for James Madison to write on November 22, 1787, that: "No
man is allowed to be a judge in his own cause; because his interest would certainly bias his judgment, and, not improbably, corrupt his integrity. . . ."
Federalist Papers No. 10.9 See also Alexander Hamilton, Federalist Paper No.
80 (stating the same principle). Thus, it is apparent that when the Constitution was written and ratified our Founders recognized the exercise of judicial
power should be through a separate judicial department composed of

Because the principle of judicial independence was used in Bonham to void a statute of
Parliament many commentators have argued that is one of the earliest cases supporting the
concept of judicial review as it was articulated by Marbury v. Madison, 5 U.S. (1 Cranch) 137
(1803). Compare Gough, Fundamental Law in English Constitutional History (supporting the
case for judicial review) with George P. Smith II, Dr. Bonham's Case and the Modern
Significance of Lord Coke's Influence, 41 Wash. L. Rev. 297 (1966) (also supporting the premise
that Bonham's Case involves an early instance of juridical review with Berger, Raoul, "Dr.
Bonhams Case: Statutory History or Constitutional Theory?" 117 University of Pennsylvania
Law Review 521 (Feb. 1969) (neutral commentary), with R. H. Helmholz, Bonham's Case,
Judicial Review, and the Law of Nature, 1 Journal of Legal Analysis (2009) (arguing that the
statute was properly voided pursuant to natural law not judicial review.)
9 Last accessed on1/29/21: http s://founders. archives. goy/documents/Madison/01- 10-02- 0178
8

10
independent judges. Id. See also James Madison, Federalist Paper No. 9 ("The
efficacy of various principles is now well understood, which were either not
known at all, or imperfectly known to the ancients. The regular distribution
of power into distinct departments [including]; the institution of courts composed of judges holding their offices during good behaviour . . ." See also
Alexander Hamilton, Federalist Paper No. 78 generally and No. 79 ("NEXT to
permanency in office, nothing can contribute more to the independence of the
judges than a fixed provision for their support. . . .")
It is now beyond dispute that the language guaranteeing judicial independence in the Constitution (that federal judges "shall hold their Offices
during good behaviour") was derived from the British Act of Settlement of
1701, which provided that "judges' commissions shall be made quamdiu se
bene geserint [as long as he shall behave himself well]." Act of Settlement, 12
&, 13 Will. 2, ch. 2, section 3 (1700) (Eng.). We know this because in 1760 King
George III declared that the Act of Settlement, with its good behaviour tenure
provision, did not apply to the colonies, and that colonial judges held their
offices only "at the pleasure of the Crown."
These policies denying colonists access to that system of judicial independence available to litigants in England provoked armed disputes in North
Carolina, South Carolina, and Massachusetts in the 1760s and 1770s. See e.g.,
Wood, Creation of the American Republic, 160; Black, Massachusetts and the
judges, 108-09; Richard Ellis, The Jeffersonian Crisis: Courts and Politics in
the Young Republic, 6-7 (1971); Mary L. Volcansek and Jacqueline Lucienne
Lafon, Judicial Selection: The Cross Evolution of French and American Practices, 19-20 (1988).

11
The change in judicial customs abrogating the good behaviour tenure of
judges also went against the rules of judicial independence that the colonists
had already established for themselves. See Smith, Joseph, An Independent
Judiciary: The Colonial Background, 124 University of Pennsylvania Law Review 1104 (1976); see also Federalist Papers, No. 9, 10, 78, 79, 80, and 81.
Thus, when complaints were made against the King in the Declaration of Independence, they specifically included those related to the lack of good
behaviour tenure for judges. "He (the King) has made Judges dependent on
his Will alone, for the Tenure of their offices, and the Amount and Payment of
their Salaries." And language overturning this emasculation of United States
Federal judges was included as part of Article III. See Federalist Papers 78
and 79.
Of course, this Court already knows this. See United States v. Will, 449
U.S. 200 (1980)("Independence won, the colonists did not forget the reasons
that caused them to separate from the Mother Country. Thus, when the Framers met in Philadelphia in 1787 to draft our organic law, they made certain
that in the judicial articles both the tenure and the compensation of judges
would be protected from one of the evils that had brought on the Revolution
and separation." Id. 449 U.S. at 219). See also Pipeline Constr. Co. v. Marathon Pipe Line Co., 458 U.S. 50 (1982) C[T]he principle of life tenure can be
traced back at least as far as the Act of Settlement in 1701, . . . To be sure, . .
. [the principles of good behaviour tenure were] eroded during the late colonial
period, but that departure did not escape notice and indignant rejection by the
Revolutionary generation. . . ." Id. at 59-60.)

12
B. Statutes Establishing the Organization of Courts
Part I of 28 U.S.C. establishes the organization of federal courts. Chapter
13 of that chapter contains statutory provisions relating to the "assignment of
judges to other courts" §§ 291-297. Chapter 17 of Part I of 28 U.S.C. sets forth
the statutory provisions related to the resignation and retirement of justices
and judges. §§ 371-377.
Years before the private sector created retirement pensions, the federal
government began attempting to do so for federal judges. In the Judiciary Act
of 1869 Congress authorized a pension for federal judges who retired after ten
years' service. Act of April 10, 1869, ch. 22, § 5, 16 Stat. 45 (codified at 28 U.S.C.
§§ 371, 372 (1970)). See Federal Judicial Council, "History of the Federal Judiciary, The Evolution of Judicial Retirement".m The Federal Judicial Council
states the retirement provisions of this statute were enacted partially to entice
Justice Robert C. Grier to retire from the Supreme Court because he could not
otherwise be removed pursuant to Article III's grant of life tenure to judges.
Id. Other commentators have documented that several other statutory amendments to Article III justices' and judges' retirement programs have also been
agreed to by people occupying the federal government's three branches of government so as to induce other specific Supreme Court justices to retire because
there was no other way they could be constitutionally replaced. See e.g., Note, Judicial Disability and the Good Behaviour Clause, 85 Yale L.J. 706, 720 (1976).
. . . Three times Congress specifically extended the statute to induce
an ailing Justice to retire.
In January 1882, Congress passed a bill extending the retirement provisions to Justice Ward Hunt, provided that he retire
Last accessed on January 12, 2020 at: httos://www.fic.gov/history/snotlight-iudicial-history/judicial-retirement

10

•
13
within thirty days. Act of Jan. 27, 1882, ch. 4, 22 Stat. 2. Justice
Hunt resigned the day the bill was signed. 118 U.S. 701, 701-02
(1886). A similar bill was passed for Justice William Moody. Act of
June 23, 1910, ch. 377, 36 Stat. 1861. In his case, though, Congress
allowed him five months to resign. The last special provision was
passed for Justice Mahlon Pitney who had served a full ten years
but had not yet reached age seventy. Act of Dec. 11, 1922, ch. 1, 42
Stat. 1063. See 64 CONG. REC. 18 (1922).
In 1929 the statute was amended to require only a total of ten
years' service (previously ten consecutive years had been required).
Act of Mar. 1, 1929, ch. 419, 45 Stat. 1422 (codified at 28 U.S.C. §§
371, 372 (1970)). The reason for that amendment was to permit
Chief Justice Taft to retire. N.Y. Times, Feb. 4, 1930, at 1, col. 8. The
pension provisions have been liberalized since 1929. A judge may
now retire with full pay at age sixty-five after fifteen years' judicial
service or at seventy after ten; a disabled judge who has not served
ten years may retire at half pay, 28 U.S.C. §§ 371, 372 (1970).
Id. 85 Yale L.J. 706 at note 64.11
In 1944 Congress amended the statute to provide that senior judges must
be designated and assigned as district court judges to exercise Article III judicial power in federal courts.12 See Act of May 11, 1944, ch. 192, §§1-3, 58 Stat.
218, 218-19 (current version at 28 U.S.C. § 294(e) "No retired Justice or judge

The article Mental Decrepitude on the U.S. Supreme Court: The Historical Case for a 28th
Amendment, 67 U.'Chi. L. Rev. 995 (Fall 2000) by David J. Garrow provides a somewhat startling view of the extent of the problem aging justices pose for our democracy. If similar
problems exist in the lower federal courts then certainly there may be a need consistent with
the mandates of our Constitution to address the problem aging jurists may be causing our
courts. See also Article: Note: Senior Judges: Valuable Resources, Partisan Strategists, or SelfInterest Maximizers?, 16 J. L. & Politics 139, 142-48 (Winter 2000).
11

Prior to the 1944 legislation that clarified this designation requirement, it was reported
that "some retired judges ha[d] walked into courtrooms and announced that they were ready
to function, when there was no need for their services." 90 Cong. Rec. 3871 (1944) (statement
of Rep. Walter). The House Judiciary Committee's report stated that "[i]n the interest of orderly administration of justice with regard to the work of the courts it is advisable that the
activity of the [judges in senior status] be fitted into the schedules of the active judges." H.R.
Rep. No. 78-934, at 2 (1943).
12

•
14
shall perform judicial duties except when designated and assigned."). The problem with the statute is short designations of judicial power rob semi-retired
judges of that good behaviour tenure which Article III establishes is necessary
for judges in the federal government. See e.g., Alexander Hamilton, Federalist
Paper 78. ("Periodical appointments, however regulated, or by whomsoever
made, would in some way or other be fatal to [a judge's] necessary independence."). See also "Are Senior Judges Constitutional?" 92 Cornell L. Rev. at 456457; 461-464; 481-484.
In their article Federal Court of Appeals Judge Stras and Professor Scott
provide examples which demonstrate that allowing other judges to designate
who gets to exercise judicial power is not the functional equivalent of good behaviour tenure.
[I]n the past senior judges have been refused designation and assignment because of issues unrelated to inability. For example,
Chief Justice Earl Warren refused to designate and assign Justice
Charles Evans Whittaker to perform work on the lower court's, despite Justice Whittaker's willingness to undertake such duties,
because Chief Justice Warren found him too indecisive during his
active service on the Supreme Court. Chief Justice Warren reportedly told a colleague "Tell [Justice Whittaker] that I could never get
him to make up his mind, and I'll be damned if I will let him do that
to me again trying cases. So the answer is no."
92 Cornell L. Rev. at 482-83.
More problematically, Stras and Scott cite to Grutter v. Bollinger, 288
F.3d 732 (6th Cir. 2002) aff 'd, Grutter v. Bollinger, 539 U.S. 306 (2003) as being
a case in which a Court of Appeals judge alleged the Chief Judge of the Circuit
had "used his position in 2001 to delay consideration of race-conscious admissions at the University of Michigan [L]aw [S]chool until two judges opposed to
the policy became ineligible to vote on it." 92 Cornell L. Rev. at 483, note 221.

15
Other commentators have also brought attention to this problem more recently
in The Curiously Nonrandom Assignment of Sixth Circuit Senior Judges, 108
Ky. L.J. 1 (2019-2020).
If what is said in these articles about judges' use of the senior judge system to achieve political results is true, it well supports Hamilton's contention
that periodic appointments of judges by anyone violates the independence of
judges that Article III contemplates.
In Leaving the Bench, 1970-2009: The Choices Federal Judges Make,
What Influences Those Choices, and Their Consequences, 161 U. Pa. L. Rev. 1
(December 2012) Professor Stephen B. Burbank, Court of Appeals Judge S. Jay
Plager, and Professor Gregory Ablaysky claim that: "whether or not members
of Congress will admit it, they are relying on judges in senior status to take
them off the hook for not authorizing an adequate number of judgeships." Id.
at 93-94. Their complaint in this regard is obvious from the situation in
Stafne's home court in the District of Western Washington which has only two
active district court judges, out of 23 adjudicators, who actually qualify as district court judges having good behaviour tenure.
Apparently, the three branches of the federal government have agreed
among themselves that this retirement program—which frustrates the good
behaviour tenure requirement of Article III—is a good way to solve the public
policy problem created by elderly judges. Stafne asserts the problem cannot be
solved by the federal government alone enacting a law that deprives federal
judges of their good behaviour tenure but still allows them to exercise judicial
power. Such a feat must be solved by way of amending Article III of the Constitution, which requires ratification by three fourths of the states pursuant to

16
Article V before the requirement for good behaviour of judges can be abrogated
for independent judges. Cf. Glidden, Co. v. Zdanok, 370 U.S. at 530, 598 Douglas, J. Dissenting ("[T]he dimensions of Article III can be altered only by the
amending process, not by legislation.")
C. Judicial decisions interpreting assignment and designation
statutes hold they are jurisdictional
In Glidden, Co. v. Zdanok, 370 U.S. 530 (1962) two set of litigants challenged they were denied the protection of judges with good behaviour tenure
and salary guaranteed by Article III because the judges assigned and designated to adjudicate pursuant to 28 U.S.C. § 293(a) and 294(d) came from nonArticle III courts. In a plurality opinion written by Justice Harlan and joined
in by Justices Brennan and Stewart the Court held that both the Court of
Claims and the Court of Appeals for the District of Columbia were Article III
courts and as result their judges had the good behaviour tenure necessary to
be independent judges under Article III. Id. at 584.
Justice Clark, with whom Chief Justice Warren joined in concurring as to
the result that objected to that part of the plurality opinion which purported to
overrule Ex parte Bakelite Corp., 279 U.S. 438 (1929) and Williams v. United
States, 289 U.S. 553 (1933). Significantly, these two justices agreed with the
plurality that the designated judges being challenged had life tenure. "And I
read the 1953 Act as unequivocally expressing Congress' intent that this
court—the jurisdiction of which was then almost entirely over Article III
cases—should be an Article III court, thereby irrevocably establishing life tenure and irreducible salaries for its judges." Glidden at 587.
Justice Douglas, joined by Justice Black, dissented to the purported overruling of the Bakelite, supra., and Williams, supra, precedents and challenged

•
17
that the judges who had adjudicated the cases were not Article III judges because they lacked good behaviour tenure. Glidden, supra., at 593-606. Thus,
all the justices in Glidden appear to agree that in order to act as a judge in an
Article III court a judge must have good behaviour tenure.
In Frad v. Kelly, 302 U.S. 312 (1937) a district judge in one court sat as a
visiting judge under an assignment and designation in another district court
to act as a judge for a specified period of time. After the designation of time
expired that district court judge issued an order in a case which he had previously adjudicated in the visited district. Id. at 313. The Supreme Court
concluded that the visiting judge's order was "null" because by the time it was
issued his authority to do so under the assignment and designation had expired. Id. at 316.
The Court explained that while a visiting judge could "perform the functions which are incidental and supplementary to the duties performed by him
while present and acting in the designated district," neither the statute nor the
designation empowered him to act beyond the temporal limitations under
which he was designated. Id. at 316-17. In explaining its holding, the Court
noted that the statutory limitations on the authority of visiting judges are jurisdictional. See id. at 319.
In Booth v. United States, 291 U.S. 339 (1934), which was decided before
Congress placed restrictions upon senior judges ability to exercise judicial
power in 1944, see supra., this Court held "by retiring, a federal judge does not
retire from office or wholly from active service, but in the words of the statute,
only 'from regular active service.' But this holding no longer reflected the law
after Congress required that semi-retired judges must be periodically assigned

18
and designated to exercise the judicial power of an Article III Judge. See e.g.,
28 U.S.C. §§ 294(c),(d), and 371(e)(1). Is this supposed to be e or c?
In Steckel v. Lurie, 185 F.2d 291 (6th Cir. 1950) the Sixth Circuit (without
citing to Frad) reached a similar result when interpreting the language of 28
U.S.C. 294 (e), which provides: "No retired justice or judge shall perform judicial duties except when designated and assigned." In Steckel the senior judge
obtained an assignment and designation to exercise judicial power, i.e., hold
Court, in the Eastern Division of the Northern District of Ohio. A few hours
after the designation was filed it was withdrawn at the request of the senior
judge. The defendant complained about the withdrawn designation, so the senior judge held in a memorandum opinion that 28 U.S.C.§ 294(d) was
unconstitutional because it could not be applied to a judge exercising judicial
power in the district court to which he was originally appointed with the advice
and consent of the Senate. Id. at 923-24.
On appeal, the Six Circuit reversed that holding because "it is clear that
limitations upon the jurisdiction of a district judge by Act of Congress are not
unconstitutional" because inferior federal court judges have only such jurisdiction as Congress affords. Id. at 924-25.
In Wrenn v. District of Columbia, 808 F.3d 81 (D.C. Cir. 2015) the Court
of Appeals concluded based on Frad that a senior judge who was designated to
adjudicate specific cases in a district court had no authority to decide a case
that had not been designated to him. The Court of Appeals held:
We conclude that Frad controls this case. Like the designated judge
in Frad, Judge Scullin had a limited designation that did not extend
beyond the specifications of that designation. In Frad, the breached
limitation was temporal; in this case, it is case designation. In
either case, a judge acting beyond his designation acts

•
19
without jurisdiction. Appellees argue that the de facto officer
doctrine supports Judge Scullin's jurisdiction, but that doctrine does
not apply. The de facto officer doctrine applies in the context of
technical defects and confers validity upon acts performed by a
person acting under color of official title, even if it is later
determined that the title is deficient. Nguyen v. United States, 539
U.S. 69, 77-78, 123 S. Ct. 2130, 156 L. Ed. 2d 64 (2003). The
designation for specific cases is not a technical matter. It is in fact
jurisdictional.
Id. at 84. (Emphasis Supplied)
Frad was also followed most recently in 2018 by senior judge J. Phil Gilbert in Clark v. United States, No. 15-cv-726-JPG, 2018 U.S. Dist. LEXIS
27596 (E.D. Wis. Feb. 21, 2018). In that case defendant Clark filed a 60(b)(4)
motion to vacate his sentence because Senior Judge Gilbert had not been assigned and designated as a judge to adjudicate his case at the time Gilbert
issued a sentencing order. After first dismissing the challenge, Senior Judge
Gilbert ultimately agreed the motion to dismiss for lack of jurisdiction had
merit but held any jurisdictional problem had been cured by a subsequent assignment and designation of the case by the Chief Judge of the Seventh Circuit
Court of Appeals. "Whatever infirmities may have existed in the Court's authority to hear Clark's § 2255 motion—which the Court discusses below—they
have been cured by the Wood Designation." Id. at 3.
Neither the Easterbrook Designation nor 28 U.S.C. § 296 gave the
undersigned judge the authority to hear new matters not submitted
during the designation period, even if those new matters arose in
Clark's criminal case. . . . Therefore, the undersigned judge
lacked jurisdiction at that time to hear Clark's § 2255 case,
and the judgment in that case must be vacated.
However, now that the [subsequent Chief Judge] Wood Designation
has cured the lack of authority for the undersigned judge to decide
Clark's § 2255 motion, the Court will reenter the same order and
judgment forthwith.

20
Id. at ** 6-7.
Clark subsequently sued senior judge Clark and others for violating his
rights pursuant to 42 U.S.C. § 1983 based on the above cited order. Judge Pepper screened Clark's complaint pursuant to 28 U.S.C. § 1915A(a). See Clark v.
Gilbert, No. 18-cv-337-pp, 2019 U.S. Dist. LEXIS 122949 (E.D. Wis. 2019).
Based on Clark's allegations that Judge Gilbert acted "beyond the limits of 28
U.S.C. §§ 291, et. seq. to deprive the plaintiff of his federal rights" the district
court decided to stay §1983 case until after the appeal of Judge Clark's above
order was decided. Id. at *10. She should have dismissed it if she found the
allegations to be frivolous. Clark's appeal of Gilbert's sentencing order appears
to be not yet resolved.
In Leary v. United States, 268 F.2d 623 (9th Cir. 1959) a judge from a New
York federal district court was assigned to the district court for Northern California beginning August 1, 1956, and ending August 31, 1956. The judge
reported for duty early and started a trial one day before his designation began.
The defendant was convicted and subsequently appealed, alleging that the visiting judge had no authority to start the trial a day prior to his designation.
The Ninth Circuit Court of Appeals en banc originally unanimously reversed
the conviction in an opinion authored by Judge McGee. Id. at 630-37.
The Court later overruled Judge McGee's decision and affirmed the conviction based on its conclusion that 28 U.S.C. § 292(c) allowed the chief judge
to temporarily assign a district judge when the need arose. A fractured en banc
court held that because the "court" which sought to exercise jurisdiction over
the defendant was the proper "court", and the judge who empanelled the jury
and conducted the proceedings was a duly sworn district court judge of that

21
"court" (except as to the date the trial was commenced) he was a de facto judge
on July 31, 1956. The Court explained:
[N]ot all errors go so far to the root as to make the whole proceeding
a complete nullity; else the trouble and expense of litigation would
go for nothing and controversy never end. Therefore, the law will not
scrutinize too nicely a judge's warrant of authority; he may indeed
have so little color of office as to stand like a mere interloper,
but that is not ordinarily true, if, being duly qualified as a
judge, some effort has been made to conform with the formal
conditions on which his particular powers depend. The
Supreme Court has several times refused to treat such conditions as
essential to the validity of his acts.
Leary v. United States, 268 F.2d at 627-28.
Stafne asserts that Leary is consistent with the previously cited opinions
in this section to the extent it acknowledges that an interloper judge, one without constitutional qualification, has no jurisdiction to exercise judicial power
under Article III.
D. Article III cases dealing with lack of good behaviour tenure
Many cases decided by this Court have interpreted the meaning of Article III's language from the perspective of both judges and litigants. In this
regard, senior judges have frequently sued to obtain relief regarding compensation to which they believed they were constitutionally entitled under the
language of Article III. See e.g., United States v. Hatter, 532 U.S. 557, 568
(2001); United States v. Will, 449 U.S. 200, 219-221 (1980); Booth v. United
States, 291 U.S. 339 (1934); O'Donoghue v. United States, 289 U.S. 516, 531-34
(1933); Evans v. Gore, 253 U.S. 245, 249 (1920). These cases demonstrate this
Court has long held Article III guarantees of judicial independence exist, "not
to benefit the judges," but "as a limitation imposed in the public interest." Id.
at 568). United States v. Hatter, supra, at 568. See also Evans v. Gore, supra.

•
22
at 249 (1920) ("The Constitution was framed on the fundamental theory that a
larger measure of liberty and justice would be assured by vesting the three
great powers, the legislative, the executive, and the judicial, in separate departments . . . ."). Thus, this Court has in the past recognized that judges'
interests in the attributes of independence are derivative from the need to provide a system of justice capable of protecting the lives and liberties of the
People.
Ordinary litigants have also asserted successful Article III claims to have
independent judges, i.e., those with life tenure, decide their cases involving the
exercise of federal judicial power by judges within the judicial department.
These cases have involved both litigants who have been compelled to litigate
in non-Article III forums, see e.g. Wellness Int'l Network, Ltd. v. Sharif, 135 S.
Ct. 1932 (2015); Stern v. Marshall, 131 S. Ct. 2594 (2011); N. Pipeline Constr.
Co. v. Marathon Pipe Line, 458 U.S. 50 (1982); United States ex rel. Toth v.
Quarles, 350 U.S. 111 (1955), as well as litigants who have been compelled to
adjudicate cases in federal courts before a substitute adjudicator who does not
have the attributes, i.e., tenure and salary, of an Article III judge. See e.g.,
Gonzalez v. United States, 553 U.S. 242 (2008); Peretz v. United States, 501
U.S. 923 (1991); Gomez v. United States, 490 U.S. 858 (1989); and United States
v. Raddatz, 447 U.S. 667, 100 S. Ct. 2406, 65 L. Ed. 2d 424 (1980). And finally,
there are also cases where on appeal it has been discovered that federal lower
courts have mistakenly allowed judicial officers without Article III attributes
to exercise judicial power. See e.g. Nguyen v. United States, 539 U.S. 69, 123
S. Ct. 2130 (2003); Glidden Co. v. Zdanok, 370 U.S. 530 (1962); Todd v. United
States, 158 U.S. 278 (1895).

23
The last two types of cases referenced above, i.e., those dealing with Article III adjudicators, are those which most clearly relate to Stafne's challenges
against these senior court judges. In United States v. Raddatz, 447 U.S. 667
(1980) a statute in which Congress delegated judicial authority to magistrate
adjudicators without good behaviour tenure to decide cases in federal court was
challenged pursuant to Article III. The Court rejected the claim because "[i]n
passing the 1976 amendments to the Federal Magistrates Act, Congress was
alert to Art. III values concerning the vesting of decisionmaking power in magistrates." Id. at 681 and note 8. This Court upheld this delegation of Article III
judicial power to magistrates only because that statute "permits the district
court to give to the magistrate's proposed findings of fact and recommendations
`such weight as [their] merit commands and the sound discretion of the judge
warrants."' Id. at 683. This Court has frequently reiterated that the only reason magistrate adjudicators can consider some issues related to cases and
controversies within the purview of the judicial department is because:
'the district judge—insulated by life tenure and irreducible salary—
is waiting in the wings, fully able to correct errors'. Peretz, supra,
at 938, 111 S. Ct. 2661, 115 L. Ed. 2d 808 (quoting United States v.
Raddatz, 447 U.S. 667, 686, 100 S. Ct. 2406, 65 L. Ed. 2d 424 (1980)
(Blackmun, J., concurring)).
Gonzalez v. United States, 553 U.S. 242, 251 (2008). Cf. Exec. Bens. Ins. Agency
v. Arkison, 573 U.S. 25 (2014) (applying the same requirement of review by an
Article III judge with tenure to Stern decisions by bankruptcy court judges)
In the other type of cases referenced above—where adjudicators without
tenure have mistakenly exercised judicial power as part of an Article III
court—the result has been vacation of the judgments. In Todd v. United States,
158 U.S. 278 (1895) after the case was submitted to the Supreme Court on

•
24

certain alleged errors, this Court became aware that the judicial officer making
the decision below was not an Article III judge and simply reversed that judicial officer's decision outright. "That a commissioner is not a judge of a court of
the United States within the constitutional sense is apparent and conceded.
He is simply an officer of the Circuit Court, appointed and removable by that
court. . . . A preliminary examination before him is not a proceeding in the
court which appointed him, or in any court of the United States." Id. 158 U.S.
282-3. In so ruling, Justice Brewer relied upon the precedent established by
Justice Story's decision in U.S. v. Clark, 1 Gallison 497(1813)13:
Now, under the authority of the United States there are but three
courts known in law, the District, Circuit, and Supreme Court; and
as Congress alone can, by the Constitution, ordain and establish
courts, none can exist but such as they create and name. . . . A court
is not a judge, nor a judge a court. A judge is a public officer,
who, by virtue of his office, is clothed with judicial
authorities. A court is defined to be a place in which justice
is judicially administered. It is the exercise of judicial power,
by the proper officer or officers, at a time and place appointed
by law.
Id. 158 U.S. at 284 (Emphasis Supplied)
In Nyguen v. United States, supra., when the Ninth Circuit Court of Appeals allowed a territorial judge without good behaviour tenure to sit on one of
its panels the Supreme Court reversed that panel's decision on that basis
alone. The Court held that 28 U.S.C. § 292(a) could not be read so as to authorize the Ninth Circuit Court of Appeals to allow a judge without good behaviour
tenure to adjudicate appeals. 539 U.S. 74-76.

Accessible at: https://www.google.com/books/edition/Reports of Cases Argued and Determined i/Wec7AAAAIAAJ?q=&gbpv=l&bsci=clarkltf=false

13

25
Similarly, in Glidden Co. v. Zdanok, supra, this Court sustained the exercise of judicial power by judges of courts it concluded were Article III courts
who therefore had life tenure. See supra.
E. Stafne has standing to assert his Article III claims
The Framers developed a Constitution in which; (1) governmental power
was shared between the federal and state governments (Federalism) to, among
other things, protect the liberty of individuals against arbitrary governmental
power. See e.g., U.S. v. Bond, 564 U.S. 211, 221-22 (2011) (individual had
standing to challenge conviction based on premise Congress exceeded its powers by enacting a criminal statute in contravention of basic Federalism
principles); and (2) the powers of the federal government were separated into
three distinct departments (Separation of Powers) to, among other things, protect the liberty of individuals from such violations of the Separation of Powers
as may concretely and particularly injure them. See Id. at 223. See also, INS v.
Chadha, 462 U.S. 919 (1983)(individual about to be deported had standing to
challenge the constitutionality of legislative veto statute); Clinton v. City of
New York, 524 U.S. 417, 433-436, 118 S. Ct. 2091, 141 L. Ed. 2d 393 (1998)
(injured parties had standing to challenge Presidential line-item veto); Northern Pipeline Constr. Co. v. Marathon Pipe Line Co., 458 U.S. 50 (1982) (litigants
had standing to challenge lack of adjudicators' Article III attributes).
Stafne's Complaint alleged facts documenting particularized injuries-infact, both in the past and likely to occur in the future as a result senior judges
without good behaviour tenure deciding cases in which he had been involved
or would likely be involved in the future sufficient to invoke review under the
standing cases just cited. As to his past claims, Stafne showed that Senior

•
26
Judges Zilly and Silverman, adjudicators without good behaviour tenure, had
exercised judicial power in such a way as to cause his home to be foreclosed
upon without any consideration of merits issues. As to the imminent threat of
injury resulting from judges without good behaviour tenure deciding future
cases in which he is involved, Stafne alleged in his complaint that only four out
of that District Court's twenty-two adjudicators had the good behaviour tenure
required to be an independent Article III judge. Pet. App. 58, Complaint, ¶
4.12. And now he shows the Western Washington District Court has only two
judges (out of 23) adjudicators who have good behaviour tenure. See supra., p.
1. Thus, Stafne has alleged that his particular injuries are "actual [and] imminent, not 'conjectural' or 'hypothetical.'" Gill v. Whitford, 138 S. Ct. 1916, 1932
(2018) citing Defenders of Wildlife, 504 U. S., 555, 560 (1991). Moreover, there
can be little doubt that if Stafne's jurisdictional challenge is sustained, his past
and future threatened injuries can be redressed by an Article III court. See
Plains Commerce Bank v. Long Family Land & Cattle Co., 554 U.S. 316, 128
S. Ct. 2709, 171 L. Ed. 2d 457 (2008) ("[I]njuries can be remedied by a ruling
in favor of the Bank that the tribal court lacked jurisdiction and that its judgment on the discrimination claim is null and void." Id. at 326-27.)
F. Stafne's claims under 42 U.S.C. §1983
Stafne alleged that relief was merited under 42 U.S.C. §1983 against Defendants Zilly and Silverman "because by purporting to act as federal judges
ordering [Washington state] Snohomish County Sheriff Trenary to sell Stafne's
real property res [located in Washington state] when they had no authority to
do so, they have deprived Stafne of rights, privileges, and immunities secured
him by the Constitution and laws." Pet. App. 52a-53a, ¶ 3.11.

27
Both the District Court and the Court of Appeals dismissed Stafne's
§1983 claim based solely on the authority of Ibrahim v. Dep't of Homeland Sec.,
538 F.3d 1250, 1257-58 (9th Cir. 2008). See 2-3a; 16a. "Ibrahim complains that
the Transportation Security Administration instructs airline personnel to detain and interrogate any person whose name is on the No-Fly List, and that
because her name was on the list, she was 'stigmatized, humiliated, and subjected to interrogations, delays, enhanced searches, detentions, travel
impediments, and . . . actual physical arrest."' Id. at 1256. The Ninth Circuit
dismissed the §1983 claims against the federal government and its officials in
Ibrahim and in Stafne's appeal because the defendants acted under color of
federal law, not state law. Id. at 1257. But Ibrahim's rationale does not apply
to Stafne's claims here.
Zilly and Silverman were sued individually because Stafne alleged they
did not have the required Article III attributes to be exercising judicial power
under the Constitution, i.e., because they were interloper, not independent
judges. In other words, Zilly and Silverman were sued because they had no
constitutional authority to apply that Washington law which they used to foreclose upon Stafne's home in Washington state based on jurisdiction they did
not have. See Frad v. Kelly, 302 U.S. 312 (1937); Todd v. United States, 158
U.S. 278 (1895). Thus, Stafne's Complaint is premised on the ultra vires actions
of Zilly and Silverman under color of Washington state foreclosure law by
which Stafne now faces a forcible eviction from his home by a Washington State
County Sheriff based on a null order of the District Court.
In Ibrahim the Ninth Circuit recognized the longstanding principle that
federal officials can be held liable under §1983 where there is a "sufficiently

•
28
close nexus between the State and the challenged action of the [federal actors]
so that the action of the latter may be fairly treated as that of the State itself,"
citing Cabrera v. Martin,, 973 F.2d 735, 744 (9th Cir. 1992). Ibrahim, at 1257.
Here, such a nexus exists by virtue of the Separation of Powers, Federalism,
and supremacy of federal courts structure of the United States Constitution as
well as Washington Constitution art. I, §2 which provides: "The Constitution
of the United States is the supreme law of the land." Thus, these adjudicators
were acting under color of both state and federal law and there is no reason
their actions of under color of state law should be exempted from the consequences of the clear language of the statute under these circumstances.
G. The Collateral Attack doctrine does not apply to void judgments
A void judgment is a legal nullity, see Black's Law Dictionary 1822 (3d ed.
1933); see also id. at 1709 (9th ed. 2009). As this Court observed in United
Student Aid Funds, Inc. v. Espinosa, 559 U.S. 260, 270 (2010) "a void judgment
is one so affected by a fundamental infirmity that the infirmity may be raised
even after the judgment becomes final." See also Restatement (Second) of Judgments 22 (1980); see generally id. § 12.
Federal court decisions by judicial interlopers qualify for the list of jurisdictional infirmities that Article III courts do not have discretion to ignore.
Compare Glidden Co. v. Zdanok, 370 U.S. 530, 533-38 (1962) ( "Article III § 1 .
. . is explicit and gives the petitioners a basis for complaint without requiring
them to point to particular instances of mistreatment in the record." Id. at 34)
with Freytag v. Commissioner, 501 U.S. 868 (1991)(Courts have "discretion to
consider nonjurisdictional [Appointments Clause] claims that had not been
raised below.")

29
Although the District Court claims otherwise, Stafne asserts that the allegations in the Stras and Scott article that senior judges did not have the
tenure necessary to be independent judges constituted a jurisdictional challenge that Article III courts are required to resolve. See e.g., Ayestas v. Davis,
138 S. Ct. 1080, 1088 (2018) ("Before we reach that question, however, we must
consider a jurisdictional argument advanced by respondent, ...") Plains Commerce Bank v. Long Family Land & Cattle Co., 554 U.S. 316, 324 (2008) (Bank's
argument that tribal court did not have authority to render judgment against
it was a "jurisdictional challenge"); United States Catholic Conference v. Abortion Rights Mobilization, Inc., 487 U.S. 72, 76 (1988) (holding nonparty witness
can assert challenge based on lack of subject-matter jurisdiction in case to
which she was not a party.); Cf. Glidden Co. v. Zdanok, supra.
Because Stafne's challenge is a jurisdictional one under Article III—not
simply a claims processing complaint—this Court should address it because the
courts below in this case and the BNYM case have outright refused to do so
notwithstanding they concede they have notice of the jurisdictional challenge. See
e.g. Fort Bend Cty. v. Davis, 139 S. Ct. 1843, 1849 (2019)(distinguishing between
truly jurisdictional challenges that cannot be waived and claims processing
claims that are waived if not timely made). See also United States v. United
States Fidelity & Guaranty Co., 309 U.S. 506, 514 (1940)(collateral attack on
subject-matter jurisdiction is permissible "where the issue is waiver of
sovereign immunity"); Kalb v. Feuerstein, 308 U.S. 433, 439-440, 444
(1940)(where debtor's petition for relief was pending in bankruptcy court and
federal statute affirmatively divested other courts of jurisdiction to continue
foreclosure proceedings, state-court foreclosure judgment was subject to

30
collateral attack). Cf. Travelers Indem. Co. v. Bailey, 557 U.S. 137, 153 n.6
(2009) (in refusing to hold challenged decision void this Court describes three
exceptional circumstances in which a collateral attack on subject-matter
jurisdiction is permitted: (1) "Allowing the judgment to stand would
substantially infringe the authority of another tribunal or agency of
government"; or (2) "The judgment was rendered by a court lacking capability
to make an adequately informed determination of a question concerning its
own jurisdiction and as a matter of procedural fairness the party seeking to
avoid the judgment should have opportunity belatedly to attack the court's
subject-matter jurisdiction"; or (3) "The subject matter of the action was so
plainly beyond the court's jurisdiction that its entertaining the action was a
manifest abuse of authority".
Stafne urges the principles set forth above favor allowing his collateral
attack on the BNYM judgment because: (1) Requiring Stafne to have the
BNYM case decided by an adjudicator without any tenure infringed upon the
authority of a constitutionally independent judge with good behaviour tenure
to adjudicate the BNYM case; (2) The BNYM judgment was rendered by a district court without a constitutionally tenured judge. That court refused to
adjudicate Stafne's constitutional challenge to Zilly's independence, as did the
Ninth Circuit Court of Appeals in both this and the BNYM cases. As a result,
Stafne's constitutional challenge has never received a fair hearing before a
properly constituted Article III court; and (3) Federal courts and judges have
long known about the constitutional challenges to senior judges' jurisdiction
but have avoided considering them (perhaps out of self interest).

31
H. Senior judges' judicial immunity defense
Judicial immunity is a longstanding concept, the purpose of which is to
assure judicial independence by insulating judges from adverse consequences
for making decisions within the jurisdiction conferred upon them that they are
required to decide. See Pierson v. Ray, 386 US 547, 553-54 (1967); Bradley v.
Fisher, 80 U.S. (13 Wall.) 335 (1871). Given this purpose, it is not a doctrine
that is appropriately used to preempt consideration of the jurisdictional challenges to the senior judges' exercise of judicial power that Stafne makes here;
namely, that these senior judges are not independent judges within the meaning of the United States Constitution who can exercise federal judicial power
on behalf of Article III federal courts.
By utilizing the immunity doctrine to prevent consideration of the issue
of their constitutional independence the District Court reaches a result that is
inimical to the purpose of the doctrine, i.e., assuring the independence of
judges.
Immunity cannot be properly invoked without a court first determining
whether the actors being sued have acted properly. This involves consideration
and resolution of whether challenged conduct was legally appropriate. If not
appropriate, the next issue is determining whether immunity should apply.
See Taylor v. Riojas, 208 L.Ed.2d 164, 165 (2020)(holding court of appeals
properly held challenged conduct violates Eight Amendment, but erred in allowing government officials qualified immunity); Filarsky v. Delia, 566 U.S.
377, 387, 394-95 (2012)(indicating 42 U.S.C. § 1983 may apply to judges and
adjudicators acting outside the scope of their subject-matter jurisdiction.)
Here, the District Court should have considered and resolved Stafne's

•
32
jurisdictional challenge based on Article III to senior judges exercising authority they did not have over him as a litigant prior to dismissing these allegations
of his complaint.
In Stump v. Sparkman,, 435 U.S. 349 (1978) this Court explained that
when a judge acts without jurisdiction to do so (such as occurred in Frad v.
Kelly, supra.,), that jurist is not entitled to immunity. In doing so this Court
offered the following analogy:
[I]f a probate judge, with jurisdiction over only wills and estates
should try a criminal case, he would be acting in the clear absence
of jurisdiction and would not be immune from liability for his action; on the other hand, if a judge of a criminal court should
convict a defendant of a nonexistent crime he would be merely
acting in excess of his jurisdiction and would be immune.
Id. at 357 n. 7 (citing Bradley v. Fisher, supra.)
This case is more like the first example (a judge without jurisdiction)
than the second one where the judge was acting in excess of his jurisdiction.
This is because Stafne's Complaint alleges these senior judges are not constitutionally qualified to exercise the judicial power of the federal branch of
government—or as the Ninth Circuit put it in Leary v. United States, supra, that they are judicial interlopers having no right to act as judges in the
Article III judicial department because they do not have that good behaviour
tenure necessary to be independent judges and are not overseen by judges who
do have such tenure and are independent judges.
For two reasons, the specific senior judges being challenged here for their
past actions—and those who will be affected if Stafne obtains that future relief
he requests—should have known that continuing to adjudicate cases as Article
III judges without good behaviour tenure violates Article III's jurisdictional

33
provisions. First, this has long been an issue of academic and judicial debate
at least as far back as 2007 when Judge Stras and Professor Scott openly asserted that position. Secondly, case law has demonstrated that federal judges
without specific jurisdiction from Congress have no jurisdiction to act as federal judges. See e.g. Frad v. Kelly, 302 U.S. 312 (1937); Wrenn v. District of
Columbia, 808 F.3d 81 (D.C. Cir. 2015); Steckel v. Lurie, 185 F.2d 291 (6th Cir.
1950). Cf. Leary v. United States, 268 F.2d 623 (9th Cir. 1959) Certainly if district court judges must have statutory jurisdiction to act as judges, they must
also have constitutional authority to do so as well. Article III tenure is much
more than the claims processing requirement the District Court suggests it is.
As this Court has long recognized all federal courts have limited jurisdiction under the Constitution. The very nature of this limitation requires that
courts and judges decide at the outset of each case whether that court and
judge has subject-matter jurisdiction to adjudicate it. See e.g. Foster v. Chatman, 136 S. Ct. 1737, 1745 (2016)(Supreme Court has an independent obligation
to determine whether subject-matter jurisdiction exists, even in the absence of
a challenge from any party." Arbaugh v. Y & H Corp., 546 U.S. 500, 51-15
(2006)(same); Gonzalez v. Thaler, 565 U.S. 134, 141 (2012)("When a requirement goes to subject-matter jurisdiction, courts are obligated to consider sua
sponte issues that the parties have disclaimed or have not presented."); Hertz
Corp. v. Friend, 559 U.S. 77, 94 (2010) ("Courts have an independent obligation
to determine whether subject-matter jurisdiction exists, even when no party
challenges it."); Bender v. Williamsport Area School Dist., 475 U.S. 534, 541
(1986) ("[E]very federal court has a special obligation to satisfy itself not only
of its jurisdiction, but also that of the lower courts in a cause under review.");

34
Louisville & Nashville R. Co. v. Mottley, 211 U.S. 149, 152 (1908); ("Neither
party has questioned that jurisdiction, but it is the duty of this court to see to
it that the jurisdiction of the circuit court, which is defined and limited by statute, is not exceeded."); Mansfield C. & L.M.R. Co. v. Swan, 111 U.S. 379, 382
(1884) ("This question [of Subject-Matter jurisdiction] the court is bound to ask
and answer for itself, even when not otherwise suggested, and without respect
to the relation of the parties to it."); Capron v. Van Noorden, 6 U.S. (2 Cranch)
126, 126-27 (1804) ("Here it was the duty of the Court to see that they had
jurisdiction, for the consent of parties could not give it.").
Thus, for years senior judges and those courts they serve have had a responsibility under the Constitution to address the jurisdictional issues Stafne
raises here without regard to such issues being raised by the parties. But no
senior or active judges appear to have ever done so. And now that this jurisdictional challenge has arrived at this Court's doorstep, it would appear under its
own precedents just cited that it has an obligation to resolve this jurisdictional
claim now that it is properly before this Court.
I. The decisions of the Court below should be summarily reversed
pursuant to this Courts' decisions in Johnson v. City of Shelby and
United States v. Sineneng-Smith
Although a person reading Stafne's Complaint instituting this action,
see Pet. App. 42a-108a, may conclude that it is not a bright light illuminating
a dark heaven: it didn't have to be. All the complaint had to do was put the
other side and the District Court on notice of those facts necessary to establish
Stafne's jurisdictional challenge that senior judges acting as Article III Judges
without good behavior tenure had violated Article III. See e.g. Johnson v. City
of Shelby, 574 U.S. 10 (2014). Stafne's Complaint did this by incorporating the

35
facts alleged in the article by Judge Stras and Professor Scott as part of this
Complaint. Pet. App. 49a-50(a), Complaint 11 3.1-3.2) And the District Court
concedes this was done: "Stafne incorporates by reference a law review article
written by David R. Stras and Ryan W. Scott. Stafne argues that for the reasons discussed by Judge Stras and Professor Scott, the Federal Judges do not
validly exercise judicial power under Article III." Pet. App. 31a.
Thus, the District Court should not have dismissed Stafne's Article III
jurisdictional attack with prejudice unless it was not plausible and could not
be made so by way of amendment and only then after explaining why Stafne's
jurisdictional attack should fail.
In United States v. Sineneng-Smith, 140 S. Ct. 1575, 1579 (2020) this
Court observed that "[i]n our adversarial system of adjudication, we follow the
principle of party presentation . . . [I]n both civil and criminal cases, in the first
instance and on appeal . . . , we rely on the parties to frame the issues for
decision and assign to courts the role of neutral arbiter of matters the parties
present." United States v. Sineneng-Smith, 140 S. Ct. 1575, 1579 (2020).
With all due respect for the District Court and Court of Appeals it appears
neither followed the principles of justice set forth in Shelby and SinenengSmith because both refused to consider the Article III jurisdictional arguments
that Stafne made based on senior judges' loss of good behaviour tenure and
consequent need to be assigned and delegated by specific judges or justices periodically to exercise Article III judicial power. Unfortunately, the failure to do
so under the facts of this case appears more attributable to these judges' aversion to changing a retirement system that works well for them, rather than
addressing the difficult question of that program's constitutionality.

36
CONCLUSION
Stafne requests this Court grant his Petition for Certiorari, and if
appropriate summarily reverse the decisions of lower courts with instructions
to adjudicate the Article III jurisdictional challenges Stafne has raised.
Dated this 1st day of February 2021.
Respectfully submitted,

SCOTT E. STAFNE, Petitioner pro se
STAFNE LAW Advocacy & Consulting
239 North Olympic Avenue
Arlington, WA 98223
Telephone: 360.403.8700
Email: Scott@StafneLaw.com

